TwinStar Credit Union
VISA Credit Card Application Disclosures
VISA – Rates & Fees

INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate (APR) for
Purchases

1.9%

introductory period for 6 months on Platinum; Platinum
Rewards; and Classic accounts.

9.00% – 11.00%

After that your APR will be
based on the
Visa account type and credit limit. This APR will vary with the market
based on the Prime Rate.
APR for Balance Transfers

6.00% – 8.00% When you open your account, based on the Visa account
type and credit limit. This APR will vary with the market based on the
Prime Rate.

APR for Cash Advances

12.00% – 14.00% When you open your account, based on the Visa
account type and credit limit. The APR will vary with the market based on
the Prime Rate.

Penalty APR

18.00% - This APR may be applied when your minimum monthly payment
is more than 60 days late.
How long will the Penalty apply? If your APR is increased for this
reason, the Penalty APR will apply until you make six consecutive
minimum payments when due

How to Avoid Paying Interest on
Purchases

Your due date is at least 21 days after the close of each billing cycle. We
will not charge you any interest on purchases if you pay your entire
balance by the Grace Period End due date each month.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection Bureau
at http://www.consumerfinance.gov/learnmore.
FEES

Annual Fee

$25 for Platinum Rewards VISA
None for Platinum or Classic VISA

Transaction Fees


Foreign Transaction Fee

Up to 2% of the U.S. dollar amount of the foreign transaction or $0.25
whichever is greater.

Penalty Fees


Late Payment Fee



Returned Check Fee

$20
$25

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases).
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late
payment.
Balance Transfers: Only balances transferred from an existing credit card account to your TwinStar credit card
account will qualify as a Balance Transfer. Balances from other types of loans may not be applied to your TwinStar
credit card account as a Balance Transfer and the Cash Advance APR will apply to such transfers.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account agreement
We reserve the right to amend the VISA Credit Card Agreement as permitted by law. The above rates and fees are
current as of March 10, 2021.

